<html>
<title> - LIBYA FRACTURED: THE STRUGGLE FOR UNITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                LIBYA FRACTURED: THE STRUGGLE FOR UNITY

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2018

                               __________

                           Serial No. 115-125

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-815PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>                                
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
ADAM KINZINGER, Illinois             BRENDAN F. BOYLE, Pennsylvania
LEE M. ZELDIN, New York              TULSI GABBARD, Hawaii
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
ANN WAGNER, Missouri                 THOMAS R. SUOZZI, New York
BRIAN J. MAST, Florida               TED LIEU, California
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Christopher Blanchard, Specialist in Middle Eastern Affairs, 
  Foreign Affairs, Defense, and Trade Division, Congressional 
  Research Service...............................................     6
Frederic Wehrey, Ph.D., senior fellow, Middle East Program, 
  Carnegie Endowment for International Peace.....................    23
Ms. Alice Hunt Friend, senior fellow, International Security 
  Program, Center for Strategic and International Studies........    30

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Christopher Blanchard: Prepared statement....................     8
Frederic Wehrey, Ph.D.: Prepared statement.......................    25
Ms. Alice Hunt Friend: Prepared statement........................    32

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    56

 
                           LIBYA FRACTURED: 
                         THE STRUGGLE FOR UNITY

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and my friend, the ranking member 
Deutch, for 5 minutes each for our opening statement, I then 
will recognize other members seeking recognition as well.
    We will then hear from our witnesses. Without objection, 
the witnesses' prepared statements will be made a part of the 
record.
    And members may have 5 days to insert statements and 
questions for the record, subject to the length limitation in 
the rules.
    The Chair now recognizes herself for 5 minutes.
    Nearly 7 years after Qaddafi's removal, Libya remains mired 
in civil conflict, political division, lawlessness, and 
economic crisis, with few signs of abating anytime soon. ISIS 
and al-Qaeda, though seriously degraded, are regrouping, and as 
we have seen in a series of car bombings this year, they are 
still very much capable of violence. Despite backing by the 
United Nations and its partners, the western-based Government 
of National Accord, or GNA, has not been able to provide 
security or consolidate power throughout Libya's vast 
territory, and it continues to clash with eastern-based House 
of Representatives backed by General Haftar and his Libyan 
National Army, or LNA.
    Armed militias, some with ties to the LNA and GNA, profit 
off the lack of security and the rule of law, smuggling drugs, 
weapons and people, and migrants using Libya as a waypoint into 
Europe, suffer horrific treatment at the hands of smugglers, 
including torture, sexual abuse, and enslavement.
    Adding to the chaos, a host of external actors continue to 
back different Libyan factions with the U.S. and the U.N. 
supporting the GNA; Egypt, the UAE, and Russia supporting 
Haftar, and Qatar and Turkey supporting the country's Islamist 
groups. And as we saw when three French soldiers were killed 
fighting ISIS alongside Haftar forces in 2016, even France has 
played both sides, sometimes assisting the U.S. and the GNA 
while at other times supporting Haftar and his factions.
    All of this has made political reconciliation more remote, 
as both sides have dug in their heels and negotiations have 
stalled. The prospect of U.N.-backed elections this year, which 
were probably too soon anyway, also seems to have fallen by the 
wayside.
    There are some encouraging signs, however, including better 
governance at the local and municipal levels and growth in the 
oil sector, which for now has saved Libya's economy from 
collapse. And it remains to be seen how Haftar's now-confirmed 
hospitalization in Paris will impact Libya's fractured state. 
If he is, indeed, incapacitated, will this be the opening that 
Libya needs for reconciliation or will there be more chaos as 
his coalition breaks apart and his backers look for a 
successor?
    With the challenges I have laid out, as well as the 
competing foreign policy priorities elsewhere, it is perhaps 
understandable that this administration would be wary of 
spending political capital in Libya. The administration does so 
at its peril, however, as this is a problem that is not going 
away and is only going to get worse for the region, for Europe, 
and for U.S. interests, if it is not addressed.
    Just last month, our U.S. commander in Africa stated that, 
``The instability in Libya and North Africa may be the most 
significant threat to the U.S. and our allies' interest on the 
continent.''
    Our partners in Tunisia and Egypt are already feeling the 
impact. Mali, Chad, and Sudan have been impacted. And we have 
seen how ISIS networks in Libya can reach into Europe with the 
Manchester and Berlin terror attacks in the last 2 years alone.
    Libya's instability is a major problem for U.S. interests, 
and we need a concerted effort from this administration to make 
it a priority. It is past time to appoint a new U.S. Ambassador 
to Libya. And soon, as it is viable from a security standpoint, 
we need to consider reopening our Embassy in Tripoli to 
increase engagement on the ground. The administration should 
also fill the empty special envoy slot as soon as possible, so 
that the U.S. has another dedicated diplomat who can work with 
our partners and coordinate our Libya policy, whatever that may 
be.
    More than anything, more than military aid, more than 
financial aid, Libya needs U.S. leadership, leadership that can 
corral the various countries' interfering in Libya, leverage 
our connections, and help push the political reconciliation 
process forward. I urge this administration to give Libya the 
attention that it deserves.
    And with that, I am pleased to yield to my friend, Mr. 
Deutch, the ranking member.
    Mr. Deutch. Thank you, Madam Chairman, for calling this 
hearing and for your continued recognition of Libya's 
importance.
    I also would like to thank our panel of witnesses for 
attending and for their wealth of knowledge on these vital 
topics.
    We have all been shaken and horrified by the images and 
stories coming out of Libya, including slave markets, dismal 
conditions of refugee camps, extrajudicial killings, torture in 
illegal retention facilities, and other human rights violations 
on a shocking scale. These are all issues that desperately need 
to be tackled and are all symptoms of the years without a 
functional government.
    I am proud that this committee unanimously passed House 
Resolution 644 strongly condemning the slave auctions of 
migrants and refugees in Libya, but we acknowledge the only way 
to stop these evil practices is to see Libya set toward a path 
of lasting stability.
    Despite the efforts of the United Nations, the 
internationally brokered Government of National Accord, based 
in Tripoli, has been far from successful. The rise of competing 
strongmen and militias, defined by their quickly changing 
loyalties, and the persistent vacuums allowing terror groups to 
grow, are preventing the country from moving toward stability.
    And these factors of instability are enabling a 
humanitarian crisis to fester and worsen, emphasizing the need 
to address the root causes of Libya's plight. Unfortunately, 
the country's trajectory does not appear to have been altered 
over the previous year in any way that would suggest that 
conditions are improving.
    Attempts to bring together warring parties have been 
hindered by fractured loyalties and varying goals. Libya's 
economy is disjointed and struggling to rise above the 
prevailing black market. This only serves to promote smuggling, 
trafficking, and other illicit activities. Libyans, who once 
benefitted from the country's oil reserves, lack opportunity 
and job prospects, with youth unemployment now over 40 percent.
    Unfortunately, without functioning institutions, the 
government will continue to lack the ability to put basic 
structures in place for economic improvement. A continued 
fractured government and persistent security concerns will also 
prevent investment in the country.
    The implications of Libya's unrest and instability don't 
only apply to its own security. Libya's neighbors are directly 
impacted by the lawlessness, movement in smuggled weapons and 
trafficked people, and a draw for terrorist groups seeking safe 
haven from regions with stronger rule of law.
    As we have seen in Syria, Russia has attempted to expand 
its influence by exploiting the Libyan unrest. With little 
regard for human dignity and international law, Russia will not 
lead Libya toward stability. They only work toward furthering 
their own interests, likely at odds with our own national 
security priorities. That is why a coherent United States 
policy, along with the U.S.'s work with the U.N. to move Libya 
in the right direction, becomes even more pressing.
    The U.S. has long focused on counterterrorism, pressuring 
Libya to combat the various extremist threats plaguing the 
country. This is continuously challenged by the difficulty in 
securing Libya's vast desert borders. Border security is 
further challenged, given the chaos of the Sahel and sub-
Saharan Africa, the use of Libya as a transit point for ISIS 
and al-Qaeda's allied fighters, and the smuggling of weapons to 
various terror groups. As conflict persists among Libya's armed 
forces and militia groups, it appears less and less likely that 
border security will increase.
    We maintain the goal of setting Libya on a course toward 
stability through a buildup of democratic institutions, the 
resiliency of which is not reliant upon personalities, but upon 
the framework of a functional government. U.S. engagement has 
been a challenge, given that U.S. Embassy personnel continue to 
operate out of Tunis. Nonetheless, we remain committed to 
democracy and governance and civil society programs.
    Of course, the solution for Libya must be ultimately a 
Libyan solution. We must look at the specific population needs, 
cultural dynamics, tribal identities, and social conditions to 
find a path forward that works for Libyans. And despite the 
obvious challenges, it remains in our national security 
interest, and those of international stability, that we 
continue to encourage and assist Libya in moving toward 
stability and preventing dangerous transnational terror groups 
from finding safe haven there. Only once good, honest, and 
comprehensive governance takes hold will the root cause of the 
horrors that we have witnessed be truly addressed.
    I look forward to hearing from our witnesses as to how 
Libya can best move forward on the path of reconciliation that 
resists the influence of non-state actors and provides 
stability and opportunity for all of the people of Libya.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, our 
ranking member.
    And now, I would like to turn to the members of our 
subcommittee for any opening statements they would like to 
make, and we will start with Mr. DeSantis of Florida.
    Mr. Kinzinger of Illinois?
    Mr. Kinzinger. Thank you, Madam Chair.
    I don't have a lot to say, except that, obviously, we find 
ourselves in a pretty tough situation there, a lot of debate, a 
lot of questions, but I think it is obvious that, with the part 
of the world that Libya is in, and potentially the 
ramifications for the rest of the world, including Europe, of a 
failed Libyan state, it is important that we stayed engaged.
    Unfortunately, we have been seeing Libya sometimes how we 
have been seeing, for instance, Syria, which is just through 
the lens of a counter-ISIS campaign, which is important, but 
this is a much bigger issue than just a fight against terror.
    So, I appreciate all of you being here, and I want to thank 
the chair for having this hearing.
    And I will yield back.
    Ms. Ros-Lehtinen. Thank you very much, Adam.
    Mr. Chabot of Ohio?
    Mr. Chabot. Thank you, Madam Chair. Thank you for holding 
this important hearing, and I will be very brief.
    I happened to be the chair of this committee when Qaddafi 
fell, when the so-called Arab Spring was happening, et cetera.
    Ms. Ros-Lehtinen. You might have been the cause of all 
these democracy movements.
    Mr. Chabot. Yes, maybe. Maybe. All this democracy.
    But I was in Libya with the Ambassador a month before he 
and three other brave Americans were killed. And so, it was 
obviously a traumatic experience for our country. It is one of 
the, I think, most unfortunate circumstances, not that incident 
necessarily, but just the overall chaos that ensued after the 
fall and where we are now. There is a tremendous amount that 
needs to be done in Libya.
    Hopefully, this hearing will shed some light on that. And 
so, I thank you very much for holding it. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. That was such a 
tragedy. Thank you so much, Mr. Chabot.
    Mr. Cicilline of Rhode Island is recognized.
    Mr. Cicilline. Thank you, Madam Chairman, and the ranking 
member, for holding this hearing.
    Libya has been a difficult challenge for the United States 
and our allies since the fall of Muammar al-Qaddafi. As we have 
seen in many other places, it is far easier to topple a 
government than to rebuild a new one. Libya continues to be 
challenged by political fragmentation, rival factions, 
decentralization, terrorist threats, and the challenges of 
migration.
    I want to take a moment in my opening to recognize and 
remember the men who were killed in the attack on our consulate 
in Libya in 2002. Ambassador Chris Stevens, Sean Smith, Glen 
Doherty, and Tyrone Woods served our country with honor and 
gave their lives in defense of our freedoms.
    I thank our witnesses for appearing here today and look 
forward to hearing your perspectives on what we can do to help 
stabilize Libya and ensure a viable path forward, so the people 
of Libya can live in peace.
    Thank you. And with that, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Cicilline.
    Seeing no other requests for time, I am so pleased to 
recognize our witnesses.
    First, we are delighted to welcome Mr. Christopher 
Blanchard, a specialist in Middle Eastern Affairs at the 
Congressional Research Service. Mr. Blanchard has covered 
developments in Libya since 2005 and served as an election 
observer for Libya's first post-Qaddafi elections in 2012, very 
historic.
    Thank you for being here today. We appreciate all the work 
you have done over the years at CRS, and we look forward to 
your testimony, Mr. Blanchard.
    Next, we are delighted to welcome Dr. Frederic Wehrey. Did 
I do that right? Thank you. He is senior fellow in the Middle 
East Program at Carnegie Endowment for International Peace and 
a 21-year veteran of the U.S. Air Force.
    Thank you for your service, Dr. Wehrey.
    He has just had a book published about Libya, and has 
written many articles on Libya and the wider Middle East.
    Thank you for your service again, and thank you for your 
testimony today, Doctor.
    And finally, we are delighted to welcome Ms. Alice Friend. 
Is that right? Just like that? Okay. Friend, that is a great 
name.
    She is senior fellow in the International Security Program 
at the Center for Strategic and International Studies. 
Previously, Ms. Friend served in various roles at the 
Department of Defense, including as Principal Director for 
African Affairs in the Office of the Under Secretary of Defense 
for Policy. She has also held numerous research positions at 
CSIS and at the Center for New American Security.
    Thank you for being here today, and we also look forward to 
your testimony.
    As I had said previously, your written testimony will be 
made a part of the record. Please feel free to summarize.
    We will start with you, Mr. Blanchard.

 STATEMENT OF MR. CHRISTOPHER BLANCHARD, SPECIALIST IN MIDDLE 
EASTERN AFFAIRS, FOREIGN AFFAIRS, DEFENSE, AND TRADE DIVISION, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Blanchard. Thank you Chairman Ros-Lehtinen, Ranking 
Member Deutch, members of the committee, for inviting me to 
testify today on behalf of the Congressional Research Service 
on Libya. I will summarize my testimony by briefly making three 
observations.
    First, as you have discussed, several internal and external 
factors are disrupting Libya's post-Qaddafi transition. These 
factors are interrelated and they have been difficult to 
overcome. For example, transitional leaders and institutions 
with competing claims to legitimacy have accumulated in Libya 
since 2011. This challenges U.S. preferences to work with and 
through a single national government partner.
    Since December 2015, the U.N. Security Council and the 
United States have recognized the negotiated GNA as Libya's 
governing authority. This seeks to confer international 
legitimacy on the GNA and to encourage unification. But, 
nevertheless, the GNA and its eastern-Libya-based rivals have 
made little progress, as you have noted. The GNA's reach 
remains limited and, importantly, it relies on militias for 
security support.
    In 2017, U.N. officials launched an action plan to move the 
transition promptly and to renew the legitimacy of these Libyan 
institutions, but its implementation has faltered. Meanwhile, 
the power of armed non-state groups remains unmatched, and 
there is a lawless atmosphere that persists. Militias, 
criminals, and terrorists, including remnants of the Islamic 
State, operate with impunity in some areas, endangering 
civilians and committing human rights abuses. These entities 
exploit instability and state weakness for political and 
financial gain. This creates powerful incentives for them to 
maintain the unstable status quo. Thousands of migrants, 
refugees, and internally displaced persons remain particularly 
vulnerable.
    Many foreign governments are seeking to mitigate 
transnational threats emanating from Libya, and some are 
actively working to shape the transition's outcome in line with 
their preferences. Libya's oil resources, its geographic 
location, and weak institutions all raise the stakes of its 
instability for others. Libyan-based terrorists, traffickers, 
and armed groups pose risks to U.S. partners in North Africa, 
the Sahel, Europe, and beyond. Locally organized Libyan actors 
cooperate and compete amongst themselves and with these 
outsiders. Egypt, the United Arab Emirates, and the European 
states are all engaging directly with different Libyan factions 
for a range of specific purposes.
    As my written testimony and reporting for CRS describe in 
more detail, this produces a complex and opaque web of 
overlapping interests and rivalries. Taken together, these 
challenges and dynamics are likely to last and to have enduring 
effects, even if the current mediation efforts improve.
    Second, U.S. policy in Libya has two main goals. It seeks 
to eliminate Libya-based terrorists and combat other 
transnational threats, and it seeks to support the transition 
to a unified, inclusive, and accountable government as the 
basis for long-term stability. The Trump and Obama 
administrations have used different blends of diplomacy and 
military operations, sanctions, and foreign aid to achieve 
relatively consistent objectives over time. Diplomatically, the 
United States is lending support to U.N. mediation rather than 
seeking to engineer a U.S.-defined solution. Given that zero-
sum attitudes have divided post-Qaddafi Libya, U.S. 
policymakers judge that an inclusive, Libyan-defined solution 
is more likely to result in stability than solutions imposed by 
force or by outsiders. Current policy also reflects the 
judgment that a settlement can't be reached without 
international support and coordination.
    So, what more can the United States do to support Libya's 
transition? Events since 2011 suggest a series of factors to 
consider. More active U.S. diplomacy and more robust assistance 
could boost actors that share U.S. goals, but also could create 
enduring costs for the United States, link the United States to 
actors that lack domestic legitimacy, or invite others to 
intervene similarly. Less active U.S. involvement could reduce 
diplomatic and financial burdens on the Unites States and could 
simplify relations with outsiders, but it might also result in 
less desirable security outcomes. If security were to 
deteriorate rapidly, containment costs could increase, pressure 
on U.S. partners could rise, and calls for new U.S. 
intervention could emerge.
    Third, for Congress, different scenarios may raise unique 
questions, but certain topics have been shown to have lasting 
relevance in Libya, regardless of how conditions have evolved. 
These include the balance of U.S. diplomatic, military, and 
foreign aid efforts; the roles of other outside actors; 
frameworks defined by the U.N. Security Council; funding and 
terms for U.S. assistance; the selection and vetting of U.S. 
partners, and authorizations for the use of military force.
    This concludes my brief remarks. Thank you for the 
opportunity to testify, and I look forward to your questions.
    [The prepared statement of Mr. Blanchard follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Dr. Wehrey?

STATEMENT OF FREDERIC WEHREY, PH.D., SENIOR FELLOW, MIDDLE EAST 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Wehrey. Thank you. Chairman Ros-Lehtinen, Ranking 
Member Deutch, members of the subcommittee, it is a privilege 
to speak with you here today about Libya's ongoing struggle for 
stability, peace, and unity.
    I join you, having visited western Libya in December of 
last year, where I glimpsed firsthand the severity of the 
challenges, the growing power of its predatory armed groups and 
the criminal networks, the plunder of its economy, the 
potential re-emergence of radicalism, to name but a few. 
Underpinning all of these inflictions is the weakness of 
governing institutions and national political fissures.
    I will start with my visit to the central coastal city of 
Sirte, the object of intense American focus in 2016 during the 
war against the Islamic State. While the Islamic State was 
ousted from its stronghold there at the cost of over 700 Libyan 
lives, Sirte faces daunting challenges of reconstruction and 
recovery. Bridging the social damage wrought by the Islamic 
State's divisive rule is especially crucial, as is restoring 
law and order.
    Though the Islamic State has dispersed to the desert 
southwest of the city, it is still potent. It could easily 
exploit Libya's political divisions and the unwillingness of 
armed groups to confront it. We have seen this before where 
Libya's opposing factions where so focused on battling each 
other that they ignored the growing radical presence in their 
midst. That is why national-level reconciliation is so 
important, along with unifying and reforming the security 
sector.
    Another important component of reform lies in the judicial 
and penal sector. Arbitrary detentions, torture, and killings 
in militia-run prisons is a potential time bomb for radicalism. 
In one such prison that I visited, suspected Islamic State 
fighters are detained in the same facility as petty criminals 
and drug addicts, along with the political rivals of the 
militias.
    And, of course, the militia-run detention centers for 
migrants are a wholly different moral tragedy. Thousands of 
migrants are kept in these horrific conditions, which I saw 
firsthand, and many of these detention centers, of course, are 
run by militias affiliated with the Government of National 
Accord. All this must change.
    Though security conditions in the absence of a diplomatic 
presence have constrained our ability to engage, there are 
still plentiful opportunities, especially at the level of 
municipal governance. Elected city councils in Libya are one of 
the country's bright spots. In many cases, they enjoy strong 
legitimacy and they have been engines for reconciliation in a 
way that national actors have not. American aid and assistance 
to municipalities is, therefore, a worthy investment.
    But municipal governance is hampered by corruption in 
national economic institutions. Libya is afflicted by a culture 
of entitlement by its armed groups, many of whom, as I have 
mentioned, are affiliated with the government. The plunder of 
Libya's Central Bank adds to the income that these groups 
already get from illicit activities like smuggling, fuel 
smuggling and human trafficking. A lasting fix to this problem 
requires sustained American diplomatic engagement with 
officials from the Central Bank and other economic 
institutions.
    Now all of these challenges I have outlined hinge upon 
progress on the political front, on national reconciliation. 
The U.S. and its partners must continue to play a strong 
convening and persuading role, especially among its regional 
Arab allies and, also, the Europeans to support the U.N.-led 
roadmap. The U.N.-led roadmap is currently headed toward 
convening national Presidential and parliamentary elections. 
This shows that Libyans have not given up on a democracy, 
despite the turmoil of the past year. However, a word of 
caution is in order. Elections by themselves, if they are held 
hastily without a constitutional framework, risk a return to 
strife. We have seen this before in the past in 2012 and in 
2014.
    Thank you for the opportunity to speak with you here today.
    [The prepared statement of Mr. Wehrey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Doctor.
    Ms. Friend?

      STATEMENT OF MS. ALICE HUNT FRIEND, SENIOR FELLOW, 
   INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Ms. Friend. Chairman Ros-Lehtinen, Ranking Member Deutch, 
members of the committee, distinguished colleagues, it is my 
pleasure to be here today to discuss the current situation in 
Libya.
    The complexity of the civil war in Libya is rivaled only by 
the complexity of the related crisis it breeds. The diversity 
and ferocity of the country's domestic politics create 
obstacles for terrorists attempting to establish havens, but 
also make the role of Islam in governance a central and 
contentious object of Libyan politics, amplifying Libya's 
salience to global Islamic terrorism. Libya's oil resources, 
proximity to Europe, and cultural connections to the Middle 
East make it a strategic prize for multiple powerful outside 
actors, and its competing governments and myriad militias fuel 
an international race for Libyan proxies. In the midst of it 
all, an historic volume of migrants is coming through Libya, 
fleeing into the Mediterranean, overwhelming European and 
broader international resources.
    Ending major violence and stabilizing Libyan politics to 
the point where powerful actors accept a single government will 
be the most durable way to address terrorism and humanitarian 
needs. Yet, the path to political equilibrium will likely be a 
long one. The international community, including the United 
States, should have a patient and realistic approach to Libyan 
politics that also accounts for Libyan internal security 
concerns.
    The current challenge for the U.S. is knowing whom and how 
to engage among the constantly shifting array of power brokers 
and would-be national leaders to encourage political 
accommodations and meaningfully address the humanitarian 
crisis. The reported incapacitation of the Libyan National Army 
command and the east-dominant center of power, Khalifa Haftar, 
is likely to generate some political and security realignments 
if Haftar is unable to return to the country.
    Although group alignments with the U.N.-backed Government 
of National Accord should open the door to outsider engagement 
in principle, the persistent dynamism of Libyan politics 
recommends a cautious approach to security assistance. Even if 
the policy remains largely focused on countering ISIS and al-
Qaeda, the U.S. will need to determine ways to sustain pressure 
on terrorist groups without undermining the prospects for 
Libya's stability.
    With regard to ongoing U.S. efforts to disrupt and 
dismantle ISIS's operations in Libya, I believe the current 
offshore pressure campaign and counterterrorism capacity-
building efforts among Libya's neighbors strikes the right 
balance between U.S. national security and the prospects for 
Libyan stability.
    Given the range of crises consuming American policymakers' 
time, it seems likely that U.S. efforts in Libya overall will 
remain relatively modest, but continued negotiations and 
implementation of the Libyan Political Agreement are best 
accomplished with the support of the U.S., not only in a 
diplomatic sense and by eventually assisting the development of 
national security forces, but also in a role supporting U.N. 
Security Council prohibitions on disrupting constructive intra-
Libyan balances of power. This latter effort requires deft 
diplomacy, especially with Gulf partners and Russia, given the 
issue linkages elsewhere, but it would be the kind of 
international leadership only the U.S. can provide.
    Thank you again for calling us together today, and I look 
forward to your questions.
    [The prepared statement of Ms. Friend follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Well, thank you very much. Excellent 
testimony. We are very grateful for it.
    I wanted to follow up on something that I had said in my 
opening statement about Haftar and his health. We have 
discussed the power struggles between the west and the east, 
the GNA and the LNA, and how external actors back different 
factions. With the uncertainty around Haftar, this raises 
serious questions about the direction in which Libya may go if 
he is incapacitated. And we may have already seen the first bit 
of fallout this very afternoon, as news reports indicate that 
the general's chief of staff survived a car bomb today in 
Benghazi.
    So, if you could tell us what the implications could be for 
the political process and for Libya's security if the general 
is out of the picture--and, of course, we don't know that--or 
perceived to be weakened? Of course, Haftar's health scare, and 
the uncertainty that brings, also calls into question the U.N. 
Envoy in Libya's efforts and assertion just last month that he 
believes Libya is still on track to have elections before the 
year is out. I think that was more aspirational than realistic, 
but it does raise questions about the U.N. support mission in 
Libya and the Special Representative's role in all of this, and 
it also underscores the lack of a role the United States has 
thus far played in Libya. Can the U.N. effort be successful 
without the United States leadership in Libya? And how could 
the U.S. use our leverage to bring the external actors together 
to support the U.N. effort to seek political reconciliation?
    And as you know, last month the Foreign Affairs Committee 
passed House Resolution 644 strongly condemning the slave 
auctions that Mr. Deutch talked about of migrants and refugees 
in Libya. This is, obviously, a major concern and a 
reprehensible human rights issue. But I was hoping we could get 
a better understanding of the trafficking picture and the 
actors involved. Who is responsible for detaining migrants and 
refugees in Libya? Are there outside actors involved? How do 
they come in? How do they operate? What role do the Libyan 
factions play in all of this, and how can Congress and the U.S. 
do more to help this awful situation?
    You can tackle one or all of them, as you see fit, 
whichever one is your favorite. Mr. Blanchard?
    Mr. Blanchard. That is a rich agenda. I will try to proceed 
through those quickly.
    I think the danger in the East is a vacuum, both political 
and military, as we have seen or are observing, and you are 
hearing more about what is behind Haftar, right? The LNA is a 
coalition. And so, from a security standpoint, that is quite 
true. The different forces would need to select new leadership 
and that could get messy.
    With regard to politics, Haftar's personal ambitions, 
although not directly and often clearly stated, are a sticking 
point in the negotiations. His desire, at a minimum, to lead 
the security forces, if not play a political role in the 
future, has been a sticking point. And so, his removal could, 
arguably, create an opportunity in that regard.
    In terms of the role of the U.N. mission and the United 
States, I think it is helpful to think about the role that the 
U.S. plays with the U.N. as setting a floor. Our role in the 
Security Council, our vote and diplomacy there with regard to 
things like the arms embargo and things like assets is the 
quiet backstop to what the U.N. mission is trying to do.
    In addition, our diplomacy, the statements that have been 
made in the Security Council are quite clear that this is the 
plan, this is the way we are moving forward. So, while we are 
not taking an active role, if you ask the actors with whom we 
may have challenging relationships, they certainly see our role 
as present.
    Ms. Ros-Lehtinen. Thank you. That is comforting. Thank you.
    Dr. Wehrey?
    Mr. Wehrey. Thank you, Congresswoman.
    I think Haftar's removal in the East would just underscore 
what we have always known, that his coalition was just a 
coalition. Ever since he launched his operation in May or the 
summer of 2014, tribes, different religious groups and 
different militias attached themselves to his operation for 
their own self-serving purposes. Once he could claim liberation 
of Benghazi, that coalition has started to unravel. So, even 
before his health problems, there was also a lot of dissent 
when I was there in Benghazi, against his style of rule, 
against the empowerment of his sons, against his political 
ambitions, his corruption. So, all of this was building. You 
have different centers of power in the East, three different 
cities. You have different tribes that are maneuvering.
    The bottom line is I think you are going to see jockeying. 
It may devolve into some violence. I think it is also an 
opportunity in the sense that, if some new figure emerges at 
the head of the LNA, the Libyan National Army, that could be 
more amenable to western Libya, that could be an opportunity 
for reconciliation. It is important to underscore in western 
Libya just how demonized Haftar was because of his baggage, 
because of his political ambitions.
    I think the United States has an important role to play 
with the regional Arab states that backed Haftar, the United 
Arab Emirates and Egypt. They had already been cooling about 
General Haftar a bit. He was not delivering for them. I think 
this just underscores the point that, if these regional states 
want influence in the new Libya, they need to support the 
backing of a new figure in the East that is more amenable to 
reconciliation and unifying the country.
    Ms. Ros-Lehtinen. Thank you so much, Dr. Wehrey.
    Ms. Friend?
    Ms. Friend. Ma'am, I agree with what my colleagues have 
said. I think there will be a real fight for control of the LNA 
if he doesn't return. I think who takes over will really matter 
because, if it is a contentious figure, then the infighting 
will continue, and if it is a powerful figure----
    Ms. Ros-Lehtinen. Let me just interrupt. When you say 
``fight for control,'' will that be a bloody fight for control, 
an electoral fight for control?
    Ms. Friend. I think it will be bloody, ma'am. I think, as 
you pointed out in your comments, we are already perhaps 
starting to see some of the struggles in today's car bomb 
attack.
    And so, I think there will be several consequences to this 
that are possible. There could be reduced pressure on violent 
Islamist groups in the area. Governance of Benghazi will 
certainly be very different going forward. I think it will 
interrupt reconciliation between the east and the west, simply 
because it is unclear who westerners now negotiate with. But it 
may help continuance of the LPA, which Haftar had announced in 
December was now defunct. So, I also agree it might be an 
opportunity. I also think it is going to interrupt Russian 
influence, at least for a time. They are going to have to 
figure out where they are going to put their investments now.
    On the U.S. side, I tend to focus on the counterterrorism 
piece. I think it is important the U.S. continue to be 
extremely discriminating in targeting, because, again, as all 
of these groups are realigning on the ground, we need to know 
exactly who we are watching and who the enemies are, and who is 
simply caught up in a fight, as it were.
    When it comes to trafficking, I would just say there is 
great variance among groups across the Sahel in how much they 
benefit from and are involved in trafficking, but it does allow 
them to blend in, if you will. And they are part of a larger 
illicit criminal network and lawlessness problem. And so, 
again, from a targeting perspective and figuring out who it is 
that we are most interested in from an American national 
security perspective, that just complicates matters.
    Ms. Ros-Lehtinen. Very difficult to figure that out.
    Thank you so much.
    And I am pleased to yield to Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman.
    Thank you to our witnesses.
    The U.N.-appointed Envoy to Libya, Ghassan Salame, plans to 
amend the 2015 political agreement establishing the current 
government, hold a national conference, call a referendum on 
the constitution, and hold elections this year, as I am sure 
that you are aware and, Dr. Wehrey, you mentioned this. Human 
Rights Watch warned last month that Libya is not ready to hold 
free and fair elections, setting concerns about potential 
coercion, discrimination, and intimidation.
    So, I would like to know from each of you, what milestones 
does Libya need to reach to demonstrate that it is ready, 
actually, for fair elections? And I suppose, what can the U.S. 
do to help create the conditions for them to achieve those 
milestones?
    Mr. Blanchard. So, to begin, the Libyan electoral 
authorities have conducted a new voter registration drive, and 
that is one of the sort of highlights that SRSG Salame points 
to, that 2.5 million Libyans stepped forward to participate. 
That shows a baseline of a desire to participate in an 
election.
    The laws surrounding a referendum, the setting of 
districts, the balance, all that needs to be agreed, and hasn't 
been. Again, as the Special Representative points out, I think 
he said at the meeting in Saudi Arabia, some of our Libyan 
brothers are very creative in their means of preventing action 
on those electoral issues, the nuts and bolts, right, the 
electoral structure. That needs to be taking place. So, I would 
watch that quite carefully.
    We saw participation decline over the past electoral 
exercises. And so, to the extent that we see turnout, that is 
something to watch very closely. Because, really, what this is 
about is the legitimacy, the lack of legitimacy in domestic 
institutions. That is what needs to be reset here.
    Mr. Cicilline. Thank you.
    Mr. Wehrey. I think there are a number of key danger 
points. The first one is the lack of a constitutional 
framework. I mean, my discussions with Libyans is, without a 
constitution, whatever government is produced is going to be 
yet another transitional government that is going to lack 
legitimacy, lack real authority.
    The other key milestones are voting laws, security. My 
visits to especially eastern Libyan underscored a degree of 
disenchantment with democracy, that we tried these elections 
before. Some people want a strongman, and that is why Khalifa 
Haftar was able to step into the void. And so, people saw that 
after the 2012, and especially the 2014, voting, there were 
parliaments that could not deliver to their constituents that 
were locked in committee disputes, and that led to strife. So, 
overcoming that popular aversion to elections is important.
    Mr. Cicilline. Thank you.
    Anything that you have?
    Ms. Friend. Yes, sir. I would say that I think a study of 
the conditions prior to the 2014 elections would be very useful 
because, of course, those elections were what, then, led to 
greater disillusion politically inside the country.
    And then, just from my own narrow purview, I always say 
capacity for electoral security is extremely important because 
elections marred by violence, as we have seen in Kenya and 
elsewhere, have very poor outcomes as well.
    Mr. Cicilline. Thank you.
    Some have argued that, based on the highly fractured nature 
of Libyan politics, governance may be better suited for a 
federalized system, granting relative autonomy for various 
regions. I am wondering whether you believe some manner of 
federalized Libya might bring about increased security and 
popular confidence in governance compared to a strong 
centralized government, where they have had so much, I think, 
disappointment with that model. Is that a feasible thing to 
consider?
    Mr. Blanchard. Decentralization has been a core theme of 
the political conversation in Libya since 2011. As Fred 
mentioned, municipalities have stepped forward and into the 
void to a certain extent. While a Federal arrangement or a 
decentralized political arrangement may emerge, difficult 
questions about state resources, the distribution of funding, 
management of security, all those would remain to be decided 
and dealt with. And it is likely that those will remain 
difficult.
    Mr. Cicilline. If I could just have one final question, 
with the chairman's indulgence? We have heard a lot about 
outside actors in Libya, and I want to focus for a moment on 
Russia, which appears to be playing several sides in this 
conflict. There are claims that Russia has facilitated the 
delivery of weapons to Haftar's forces, sometimes through legal 
sales to Egypt, and the Russian special forces are reported to 
be operating in the porous border region between Egypt and 
Libya. So, if you could give me your assessment of what is 
Russia's goal with respect to Libya and what does it have to 
gain in Libya? And what does the U.S. risk by Russia increasing 
its influence, or attempting to increase its influence, in the 
various warring Libyan groups long term?
    Mr. Wehrey. I think Russia wants to undercut European and 
U.S. influence. I think this is an opportunity for them. I 
think they have a number of financial goals in mind regarding 
arms contracts, many of which they had before the revolution. 
Gas deals, they had infrastructure projects. So, I think partly 
it is monetary, but it is also a political opportunity. I don't 
think they have got all their eggs in the Haftar basket. I 
think they are diversifying their contacts to include Misurata, 
to include Tripoli. They see themselves as a potential power 
broker. They could certainly undercut the U.S. and the 
Europeans.
    Ms. Friend. Yes, sir, I would agree with that. I think they 
are playing as many sides as possible, so that they will have 
influence in the eventual government that wins out.
    Mr. Blanchard. Yes, I mentioned the Security Council 
earlier. The Russians have the same quiet role that we have and 
the ability to delay and obstruct.
    Mr. Cicilline. Thank you so much. Thank you, Madam 
Chairman, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline. Excellent 
questions and great answers.
    And now, I am pleased to yield to one of our favorite 
veterans on our subcommittee----
    Mr. Kinzinger. Well, thanks.
    Ms. Ros-Lehtinen [continuing]. Mr. Kinzinger.
    Mr. Kinzinger. Thank you. That is very nice. Thank you, 
Madam Chair.
    As I said in the opening, thank you all for being here.
    I actually think Libya is an interesting study. With all 
the challenges we have, it actually could end up, if we figure 
out how to handle it--it is a very wealthy country with a 
relatively small population. I also used Libya as kind of the 
example when people argued, although the situation on the 
ground has changed a little bit much now, against intervention 
in Syria. I said, well, you have \1/2\ million dead Syrians. 
You don't have that level of instability in Libya, even though 
there is a major challenge.
    The problem with Libya is our failure to follow through, I 
think, what was rightfully an intervention. And then, we just 
kind of assumed it would all work itself out, and it didn't.
    So, I think leaving Libya with no strategy, if we are 
dealing with a post-Qaddafi world, we can look back in 2020 and 
say, here is everything. I think it is important for us to talk 
about, though, what we could have done differently post-Libya, 
because it would be naive of us to think we will never be in 
this kind of situation again.
    So, Mr. Blanchard, if you have ideas of what we could have 
done differently? Or else we will go down the panel. I am 
curious of what you guys would say. If you could go back in 
time, what would you have changed in order to try to create a 
better post-Qaddafi scenario?
    Mr. Blanchard. I think perhaps Alice might be better suited 
to talk about the Obama administration's view and what the 
conversation may have been. The President himself has been 
clear in terms of what he saw as the failure, and it really 
was, as you mentioned, the assumption not just that it would 
work itself out, but that the European partners and Arab states 
would step forward in a coordinated manner.
    If we look at the diplomatic level, it really is what SRSG 
Salame calls too many cooks in the kitchen, and too many cooks 
maybe with bad intent or their own selfish intent. So, it is 
that coordinating function, the speaking with one voice, and 
making sure that there wasn't daylight such that those 
individual interests could begin to play themselves out and 
amplify the internal dilemma. So, early coordinated action may 
have been something that I would focus on.
    Mr. Kinzinger. Ms. Friend, actually, if you want to jump 
into that? And then, we will go to you, sir.
    Ms. Friend. Yes, sir. By the time I stepped into my 
Pentagon job in the Africa office, from a DoD perspective, we 
were already quite cautious because the empowerment of 
militias, of course, was off and running. And so, it was very 
hard to know from a security assistance perspective which party 
not only was aligned with a legitimate government we recognized 
at the time, but also would continue to be aligned and would 
continue to be a good-faith actor, which was something that 
AFRICOM certainly emphasized as well.
    Mr. Kinzinger. Did you guys discuss peacekeepers at all, 
and was that even a possibility?
    Ms. Friend. I don't recall us discussing peacekeepers at 
that point. I know that it has been in the ether, especially 
among some Europeans, for quite a long time. Peacekeeping 
itself has its own sort of difficult track record as well. 
Peacekeeping is an extraordinarily difficult thing to do, and 
it really depends on the parties on the ground wanting to have 
a peace to keep. And I don't think we were there with Libya 
yet.
    And so, I think the complexity and difficulty of the 
environment was something that we simply did not recognize long 
enough into it. And by the time we did, it was very hard to be 
able to have meaningful influence on the ground, particularly 
given the security situation for our own personnel.
    So, I do wish, if I could rewind the clock, I wish that the 
U.S. had perhaps taken a more forceful role at the United 
Nations, that we had been more involved among the parties, 
although I know Ambassador Stevens could not have been a better 
person to be there and working that issue.
    So, it is possible that Libya is a case where forces on the 
ground were such that it would have been very, very hard for 
the United States to do anything unilaterally, but I do think 
the international community could have put in much more focus 
and effort in the early days between 2011 and 2012 to perhaps 
head off the worst of the violence and get the negotiations 
started sooner.
    Mr. Kinzinger. Thank you.
    Sir?
    Mr. Wehrey. I think in the first year there was an 
excessive focus on elections as a success marker. And so, the 
U.N. was entirely focused on elections, to the detriment of 
dealing with the DDR problem, with the militias, with the 
security sector. I think the U.S. handed this off to the 
Europeans and the United Nations, who were both unable and 
unwilling to address it.
    So, you had these elections, but, then, you had no way to 
protect the democratic institutions from the power of militias. 
That raises the question of a stabilization force, which I 
agree brings a whole host of other consequences, but perhaps 
even a limited stabilization force to secure key facilities in 
Tripoli, the parliaments, economic institutions, to protect 
them from militia pressure.
    But the huge challenge of demobilizing the militias was 
made worse when the Libyan Government itself started paying the 
militias with oil wealth in late 2011. That was a disastrous 
decision. So, perhaps more U.S. oversight of Libya's use of its 
oil wealth could have stopped this disaster. I think by the 
time we got around to trying to train and equip a Libyan 
military force, the General Purpose Force, it was too late. 
That effort led to disaster because the militias were too 
strong. So, again, the bottom line is I think we missed a key 
window in that first year to exert more of a presence.
    Mr. Kinzinger. And I think it is somewhat to the extent of 
the mistake made in Iraq, where we went in and there was a 
sense of lawlessness after the invasion instead of law, and 
people turned.
    And, Madam Chair, if I could ask just one more question 
with leniency?
    Ms. Ros-Lehtinen. Absolutely. Go ahead.
    Mr. Kinzinger. We talk about Haftar. Whoever has the 
knowledge on it--maybe all three of you--how would you compare 
him and how you would see a Libya under the rule of Haftar, if 
you will, versus like Qaddafi? Is he more benevolent? Is he as 
ruthless? I mean, what is kind of the sense there? And I am 
sure there is no way to really know, but what are your 
thoughts?
    Mr. Blanchard. Muammar al-Qaddafi was a very unique 
individual. So, I would be reticent to compare or expect anyone 
to equate quite that way.
    The fact of the matter is that, personality aside, Libya 
has changed. The political and security power has been 
atomized, and any individual and/or ruling arrangement that 
emerges from this process is going to have to recognize that. 
In an odd sense, the Libya of Qaddafi's imagination, with 
individual communities leading themselves and feeding upward. 
That is, ironically, now more the case than it was when he was 
there. And so, whoever is leading Libya in the future is going 
to have to deal with, as I said, this atomization that has 
occurred.
    Mr. Kinzinger. Fair point.
    Mr. Wehrey. I think Haftar's support was already weakened. 
So, he didn't have the sort of total control that Qaddafi had. 
But, that said, there were a number of similarities that his 
opponents have drawn and that I witnessed when I was in 
Benghazi. I mean, he was cultivating his sons. He did sort of 
enact a cult of personality where you would go around Benghazi 
and see billboards of Haftar's picture everywhere. The police 
state, people were not free to speak their minds in Benghazi. 
People who criticized them disappeared. Censorship of the 
press. He brought back the old police, secret police. He relies 
on tribes. He tries to manage tribes, play them off against 
each other. So, there are some similarities. That said, as we 
have seen with his failing health and his diminishing 
influence, I don't think it compares to Qaddafi.
    Mr. Kinzinger. Did you have anything else?
    Ms. Friend. No.
    Mr. Kinzinger. Okay. Well, thank you, Madam Chair, and I 
yield back.
    Thank you all.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Kinzinger.
    Mr. Connolly of Virginia?
    Mr. Connolly. Thank you, Madam Chairman.
    And welcome to our panel.
    Dr. Wehrey, let me start with you. You said one of the 
bright spots potentially, not to overstate it, but were kind of 
at the local level in terms of elections, function. And that 
was music to my ears. I come from local government. I think it 
is long neglected. I think a lot of our democracy promotion 
programs start at the top and we start with the Parliament, as 
opposed to starting at the village level and working the way 
up.
    Can we build on that, do you think? Could that maybe affect 
our strategy moving forward, maybe a different course for us in 
terms of what we pursue in Libya, given the fact there is a 
hopeful sign, but it is working at the local level?
    Mr. Wehrey. Absolutely. I mean, we have seen a number of 
positive developments where there has been reconciliation 
between towns that were previously fighting. Towns enjoy strong 
legitimacy with their elected councils. This was true in 2012 
through to the present, although I will caveat this that in the 
east there are non-elected mayors that have been appointed by 
the army.
    So, American engagement through USAID and through other 
channels, is absolutely the right way to go; however, not 
necessarily these non-elected councils. But I think, I mean, 
helping them to deliver services, the problem, though, also, it 
goes back to the national level, where they don't get their 
budgets. They are criticizing the Government of National Accord 
for the way it distributes its budget. So, I think American 
engagement has to be from both levels. I mean, the local is 
important, but it can only get you so far. There has to be 
engagement at the national level.
    Mr. Connolly. Yes, but the thing about local government 
that all over the world some institutions just don't get it, 
but if you want to build democracy, it is built on a social 
contract.
    Mr. Wehrey. Absolutely.
    Mr. Connolly. I pay my taxes, and you pick up my trash. I 
pay my taxes; the clinic is open when I need it. I pay my 
taxes; the road gets paved. I pay my taxes; there is a clean 
source of water.
    If, on the other hand, there is no respect for that and 
there is no culture of, well, what do you mean we are supposed 
to make all that work, we don't do that, it is corrupt, not our 
business, well, then you are going to completely erode 
confidence in the basic institution of governance, and it is 
why it exists, let alone democracy and what kind of government. 
And I think often that gets overlooked. That is why I picked up 
on what you said as one maybe helpful sign that we could build 
upon, expand; God forbid we invest in it.
    Mr. Blanchard, we have met before and we had a talk about 
terrorism in the Maghreb. And one of the things I recall you 
and I talking about, and I want to give you an opportunity to 
talk about it on the record here, but Libya is kind of key. I 
mean, if we are going to get at terrorists, well, instability 
in parts of Tunisia, parts of Nigeria, parts of Morocco, you 
cannot ignore the big, huge, festering sore of Libya. It is 
kind of key to addressing all the other potential hotspots in 
the region.
    Could you elaborate a little bit on that and how what we 
are talking about relates to other things we also care about in 
the region?
    Mr. Blanchard. Sure. As I said earlier, I think the United 
States is one actor among many outside Libya that is seeking to 
mitigate transnational threats, terrorism in particular. I 
think terrorism is the key driver of Egypt's desire to back 
``the strongman approach'' to security in eastern Libya.
    I think the continued availability of weapons, the ability, 
particularly on the southern and southwest borders, of people 
to transit back and forth allows a place for the ISIS fighters 
that Fred talked about being displaced from Sirte to hide, 
regroup, to reorganize. I also think that, in terms of our 
investment, the Department of Defense is, to the extent that we 
are investing in a sort of long-range counterterrorism 
approach, it is a containment strategy, and it is built 
entirely on this. So, it is a draw on our resources as well.
    With regard to local communities, I did just want to 
observe the USAID programs, the Transition Initiatives Programs 
have a lot of components that are focused precisely on aspects 
that you raised, you know, helping local communities and local 
government improve services, take the temperature of the town 
and see what they need. So, that kind of grassroots approach is 
one component of our policy. But, as Fred observed, in the 
absence of a nationwide national political accord, it is going 
to be difficult for those to really prosper.
    Mr. Connolly. Yes, it is harder, and I am a big supporter 
of both NDI and IRI, and I think they are necessary. But I 
think sometimes it is easier to work with parliamentarians in 
the national capital than it is to roll up your sleeves and go 
down to the village level and try to help them do their jobs, 
and do it in a way that incorporates accountability and 
transparency, which are elements of democratic institution-
building.
    From my own personal experience of working on some projects 
before I had this job, sometimes we do it well; sometimes we 
don't. I believe the building block of democracy starts at the 
local level, not the other way around.
    Can I just ask one last question? This is the big 
philosophical one. But I was in Libya a few years ago with our 
former colleague, David Dreier, under the House Democracy 
Project. What struck me about Libya was, unlike some other 
places, you essentially have three population centers. They are 
all near the coast. You don't have a huge interior population. 
It is, relative to some other places, not all that 
heterogeneous; it is a pretty homogeneous population. Tribal 
divisions, yes, but they used to, I mean, they are just coming 
off one-man rule for quite a long time. You could call that 
stability, not one we desire, but it is not like it is a novel 
thought that there could be a government, a central government, 
that exercises authority. It is a small population.
    So, why is this so hard? Why has it already been so long 
that we see this kind of chaos, this inability to put together 
meaningful coalitions that can govern and into which the 
population can invest and support? Why is it so hard?
    Mr. Wehrey. Congressman, thank you.
    I agree. I mean, these were all things that led to our 
optimism after the 2011 revolution. I think the fundamental 
problem is Qaddafi ruined this country. He gutted it of 
institutions. So, Libyans had no experience in self-governance. 
The entire muscle fiber you need to run a country was missing. 
Qaddafi ruled this in a highly personalized way.
    So, things like civil society, unions, elected municipal 
councils, they were all starting from scratch. And the 
fundamental vacuum is also the security sector. I mean, there 
was no army. So, you had the growth of these militias. You had, 
unfortunately, during the revolution and after, you did have 
real divisions growing between these different towns that acted 
like autonomous statelets that coalesced with their own 
militias, their own sources of income.
    I agree it is a small population; it should be easier. But 
the final thing I will add is the management of the economy. As 
the U.N. has mentioned, at its core, this is a contest for 
plunder, for access to economic resources. So, the economy is 
both, I think, a blessing and a curse.
    Ms. Friend. Sir, can I just say, historically thinking, the 
idea of Libya as one unified country is actually an anomaly. It 
is a very regional organization. In fact, there was no, there 
still is no rail line between eastern and western. It is very 
hard to drive. There is just not a lot of infrastructure 
integration between east and west. And the Fezzan in the south 
has always been isolated.
    And so, I think, at least from a regional perspective, even 
though it is a small population, there actually isn't a 
tradition of integration across regions in Libya. And so, to 
some extent, this is a project that is imposing a new concept 
on Libya, Qaddafi notwithstanding. I mean, I think he papered 
over a lot of things and just did it through strength of arms.
    And I was intrigued by what Mr. Blanchard had said about 
how the hangover from Qaddafi is such that there is now a deep 
suspicion of centralized authority. So, it is not a historical 
tradition, and with Qaddafi as their example, why should the 
average person in Benghazi or Derna trust the Tripoli 
government? And this is what folks there have to overcome.
    Mr. Connolly. Thank you.
    Mr. Blanchard. I wouldn't want to let the international 
community off the hook. As I said, seeking to mitigate 
transitional threats or pursuing their own agendas, political, 
regional, ideological, has led to a lot of interference, and it 
has amplified the real internal challenges and difficult 
dilemmas, zero-sum behavior, security threats, that Libyans are 
facing. When you have outsiders coming in, observing a 
difficult situation, and saying, well, ``I need to back this 
person to solve my problem,'' that has an amplifying effect, 
and it has really, I think, helped account for what we have 
seen subsequently.
    Mr. Connolly. Madam Chairman, you have been so gracious, 
but it has been a very thoughtful conversation.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Connolly. And thank you.
    Ms. Ros-Lehtinen. I pay my taxes, and I want clean water. I 
pay my taxes. I got it.
    Thank you so much, Mr. Connolly.
    I would like to ask, if you would allow me, the questions 
that Mr. Deutch had. And they have kind of been covered a 
little bit, but I want to make sure that his are covered 
extensively.
    First, ``The U.N. Refugee Agency estimates that there are 
1.1 million people in Libya in need of humanitarian assistance. 
Displaced families, refugees, and those living without basic 
services or health care continue to demonstrate Libya's need 
for assistance.''
    So, Mr. Deutch asks, ``Do you think the U.S. is providing 
adequate levels of humanitarian assistance to Libya, and what 
gaps remain where the U.S. or our international partners could 
step up?''
    Mr. Blanchard?
    Mr. Blanchard. I am looking for the data points that I 
brought with me because I want to get this right.
    So, there is an International Humanitarian Response Plan 
for Libya. The United States is the top contributor in 2016 and 
2017 of humanitarian funding by just a hair. The Germans and 
the Italians, the Europeans also put forward funds to support 
that.
    The needs that have been identified I think were 70 percent 
met last year. Could more be done, particularly with regard to 
the migrant situation? The United States approach has been, I 
think, to let European states and the European Union take the 
lead there. Working together, the European Union, the African 
Union, and the U.N. have taken some steps to address that 
problem. Again, the United States, I think, declaratory policy 
is quite supportive of that, and behind the scenes we are 
making a contribution.
    Mr. Wehrey. Chairman, I would defer to Mr. Blanchard on the 
actual specifics, but let me just underscore that the refugee 
displacement issue is so profound, and I saw it firsthand. I 
mean hundreds of families displaced from the city of Benghazi 
are crowded into other cities in the west, Misrata and Tripoli. 
There are refugees from the south that are in the capital. So, 
these refugees are straining the ability of the government in 
the capital.
    You have other local communities that have been displaced 
through fighting. The city of Tawergha is the main example, and 
I have been in their camps. There are truly horrific 
conditions, you know, young kids growing up year after year in 
these squalid refugee camps. So, it is a huge moral problem.
    The U.S. I think can always be doing more. I think its 
role, however, should be focused on Libyan economic 
institutions that can better address the plight of those 
displaced economically. So, there again, that leads me back to 
U.S. engagement with the Central Bank.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Friend?
    Ms. Friend. Madam Chairman, Ranking Member Deutch mentioned 
root causes. I think in this case it is important to 
distinguish between the humanitarian needs from the Libyan 
population as a result of the violence and, then, the 
humanitarian needs of the migrant population coming from sub-
Saharan African largely.
    And when it comes to humanitarian needs for the Libyans, to 
address that, of course, involves addressing the root causes of 
the violence. And so, that, again, gets us back to these 
reconciliation efforts.
    And when it comes to the sub-Saharan Africans, then that is 
also its own set of root humanitarian and governance issues 
that are driving people out of their homes. So, we think of 
about Eritreans crossing the desert in Sudan to get to Libya, 
to get across the Mediterranean. Addressing what is happening 
in Eritrea or what is happening in Niger, or Mali, I think is 
as important as catching the problem by the time it gets to 
Libya.
    Ms. Ros-Lehtinen. Thank you very much.
    And his second question--thank you for those answers--``The 
U.S. and the U.N. continue striving to work through the 
existing framework established under the Libyan Political 
Agreement to establish and move Libya forward. Some, however, 
do not recognize this agreement's legitimacy. In your opinion, 
do you believe this framework is viable or does a new path need 
to be forged?''
    Mr. Blanchard. I think the SRSG's current approach is 
driven by, as I said in my opening statement, a desire to 
refresh the legitimacy of institutions, in particular, so that 
decisions can be taken by a recognized authority. So, in terms 
of a legitimacy deficit, it is clear--not necessarily that we 
in the United States get to decide that or point to it; it is 
the Libyans themselves who think that various institutions lack 
legitimacy. And so, this entire exercise is, arguably, aimed at 
that.
    Mr. Wehrey. I agree. I mean, I think this was an important 
starting point. It was flawed. Certainly, it was opposed. But 
it was at least a mark on the wall. And so, before you peer 
into the abyss and jump into it, you have to have something to 
replace it. So, I think the U.N.'s approach with amendments, 
with reviving it, giving it new legitimacy, is the right 
approach. Of course, there are multiple actors across the board 
that benefit from the status quo, and spoiling it. Some of 
these actors are backed by international states. And that is 
why I think the U.S. has an important convening role to get 
everyone on the same page to say, let's move forward on this 
roadmap. This LPA certainly was flawed, but was signed up to, 
and it needs to be the basis.
    Ms. Friend. Ma'am, I addressed in my written testimony the 
security elements of the LPA, which I think in principle are 
very good. The problem with the implementation has been making 
the leap, as I say, from militias to a national military force.
    In particular for the HOR and Tobruk that works with 
Haftar, the issue has been command and control and the 
Presidential Council being the Commander-in-Chief of the armed 
forces with which elements of the HOR are not comfortable.
    So, I think in these discussions, if these issues can be 
worked out, the framework of the LPA from a security 
perspective is quite sound.
    Ms. Ros-Lehtinen. Well, we alternate between high hopes, 
low expectations, and it is just some kind of wild ride. And 
unfortunately, so many lives are at stake.
    Thank you so much for excellent testimony.
    And please tell Mr. Deutch that I did comply with his 
questions. I did my homework.
    Excellent witnesses. Thank you.
    With that, the subcommittee is adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
